' t>

flppejdiit Pi
First District Court of Appeal
State of Florida
No. 1D19-0182
Keith O. Johnson,
Appellant,
v.
State of Florida,
Appellee.
V,
(■

On appeal from the Circuit Court for Leon County.
Robert E. Long, Jr., Judge.
December 9, 2019
Per Curiam.
Affirmed.
BlLBREY, WlNOKUR, and M.K. THOMAS, JJ„ concur.

Not final until disposition of any timely and
authorized motion under Fla. R. App. P. 9.330 or
9.331.
\

Keith O. Johnson, pro se, Appellant.

IfipeAidit A

I dfQ. pg 0

r

MANDATE
from

FIRST DISTRICT COURT OF APPEAL
STATE OF FLORIDA
This case having been brought to the Court, and after due consideration the Court
having issued its opinion;
YOU ARE HEREBY COMMANDED that further proceedings, if required, be had
in accordance with the opinion of this Court, and with the rules of procedure, and laws of
the State of Florida.
WITNESS the Honorable Stephanie W. Ray, Chief Judge,- of the District Court of
Appeal of Florida, First District, and the seal of said Court at Tallahassee, Florida, on this
day.
January 06, 2020
Keith O. Johnson v.
State of Florida
DCA Case No.: ID 19-0182
Lower Tribunal Case No.: 99-4638AF

kRISTINA SAMUELS, CLERK
District Court of Appeal of Florida, First District

w

,©mJ

m
m

FIRST DISTRICT

m

OF FV
th
Mandate and opinion to: Hon. Gwen Marshall, Clerk
cc: (without attached opinion)
Robert Quentin Humphrey, AAG
Hon. Ashley Moody, AG
Keith O. Johnson

■XcfO.

r

S

t

\ 4

R20000080234
RECORBEB IN

PUBLIC RECORD! LEON CNTV EL
BOOK: R2432
PAGE: BttfiC

I,i the Circuit Court, Second Judicial Circuit,
in and for Leon County, Florida

NOV 07 2000 12:30 pn
BAUE LANG. CLERK Or COURTS

Division: Felony
State of Florida
v.

BK: R2432 PG: 08266

VFTTH JOHNSON
Defendant

<23

i;

/

Case Nn

__ Probation Violator
__Community Control Violator

R1999-463 8 A

___ Retrial
___ Re sentence ^

^

*?ps %

The Defendant*

, being personally before this Cducf

if FTTH JOHNSON

represented by,

RICHARD GREENBERG

represented by.

rHFTgTfTPWF.R f.ANOVA

, the attorney of record, and the st|t£
, and having

been tried and found guilty by jury/by court of the following crime(s)
____entered a plea of guilty to the following crime(s)
X
entered a plea of nolo contendere to the following crime(s)
Offense Statute
Number(s)

OBTS Number

Case Number

Degree
of Crime

Count

Crime

1

Sexual Battery w/Deadly Weapon

794 011 3

Fel- LF

R1999-4638 A

2

Sexual Battery w/Deadly Weapon

794 011 3

Fel- LF

R1999-4638 A

3

Sexual Battery w/Deadly Weapon

794 011 3

Fel- LF

R1999-4638 A

4

Sexual Battery w/Deadlv Weapon

794 011 3

FpI- LF

R1999—4638 A

5

Kidnapping to Inflict Bodily

787 01

3

Fel- 1 PBI R1999-4638 A

1

Harm or Terrorize
6

Burglary of Dwelling While

810 02

2B

Fel- 1 PBI R1999-4638 A

7

Armed
Attempted First Degree Murder

782 04

1

Fel- LF

8

Armed Robbey w/Deadly Weapon

812 13__2A

X

R1999-4638 A

Fel- 1 PBI R1999-4638 A

and no cause being shown why the defendant should not be adjudicated guilty, IT IS ORDERED THAT the
defendant is hereby ADJUDICATED GUILTY of the above crime(s).
.
.
and pursuant to section 943.325, Florida Statutes, having been convicted of attempts or offenses relating to
sexual battery (ch. 794) or lewd and lascivious conduct (ch. 800) or section 782.04 (murder) or section 784.045
(aggravated battery) or section 812.133 (carjacking) or section 812.135 (home invasion robbery) the defendant
shall be required to submit two blood specimens in accordance with section 943.325(8).
CD
and good cause being shown; IT IS ORDERED THAT ADJUDICATION OF GUILT BE WITHHElgB)

Appendix A

CD
GO

lafYfyS
Page

Rev. 9/20/00

of

!

'

1

If- •>*
Defendant

KEITH JOHNSON

, #

W

Case Number R1999-463 8 A
OBTS Number

R20000880234
BECOMES IN

SENTENCE

PUBLIC RECONBS LEON CNTV FL
BOOK: 03432
PMC: 002GI

NOV
07 2000 12:30 PM
DAUE LANG. CLERK OF COURTS

(As to Count (s') 1 - 8 )

BK; R2432 PG: 00288

The defendant, being personally before this court, accompanied by the defendant's attorney of record,
R. Greenberg
, and having been adjudicated guilty herein, and the court having given defendant an opportunity
to be heard and to offer matters in mitigation of sentence, and to show cause why the defendant should not be sentenced as
provided by law, and no cause being shown
(Check one ifapplicable)
____ and the Court having on

deferred imposition of sentence until this date
(date)
now
and the Court having previously entered a judgment in this case on_
(date)
resentences the defendant
and the Court having placed the defendant on probation/community control and having subsequently
revoked the defendant's probation/community control.

It Is The Sentence Of The Court that:
, pursuant to section 775.083, Florida Statutes, plus
The defendant pay a fine of $
$_________ as the 5% surcharge required by section 938.04, Florida Statutes.
x The defendant is hereby committed to the custody of the Department of Corrections.
County, Florida.
___The defendant is hereby directed to the custody of the Sheriff of
___The defendant is sentenced as a youthful offender in accordance with section 958.04, Florida Statutes.
;

To Be Imprisoned (Check one; unmarked sections are inapplicable):
_X For a term of natural life.
___For a term of__________________________
___Said SENTENCE SUSPENDED for a period of
conditions set forth in this order.

subject to

If "split" sentence, complete the appropriate paragraph.
on probation/community control under the
Followed by a period of
supervision of the Department of Corrections according to the terms and conditions set forth in a separate
order entered herein.
imprisonment in
However, after serving a period of
the balance of the sentence shall be suspended and the defendant be placed on probation/community contro
under supervision of the Department of
for a period of
Corrections according to the terms and conditions of probation/community control set forth in a separate
r. .
order entered herein.
In the event the defendant is ordered to serve additional split sentences, all incarceration portions shall be satisfied before
the defendant begins service of the supervision terms.

o
CD
CD
CD
CO

Page

of

9/20/00

:

Defendant

KEITH JOHNSON

• I

w

Case Number

R1999-463 8 A

SPECIAL PROVISIONS

W»L,C ««»*

Es3bww

(As to Count

______ )

6K: R2432 PG: 08289

By appropriate notation, the following provisions apply to the sentence imposed:
Mandatorv/Minimum Provisions:
Firearm
Drug Trafficking
Controlled Substance
1,000 Feet of School
Habitual Felony Offender

Habitual Violent
Felony Offender

Prison Releasee Reoffender

X

Law Enforcement
Protection Act
Capital Offense
Short-Barreled Rifle,
Shotgun, Machine'Gun. t ■
Continuing Criminal Enterprise

minimum imprisonment provisions
It is further ordered that the
of section 775.087, Florida Statutes, is hereby imposed for the sentence
specified in this count.
mandatory minimum ‘
It is further ordered that the ___
imprisonment provisions of section 893.135(1), Florida Statutes, is hereby
imposed for the sentence specified in this count.
It is further ordered that the 3-year minimum imprisonment provisions of
section Within 1,000 Feet of School 893.13(l)(c), Florida Statutes, is
hereby imposed for the sentence specified in this count.
The defendant is adjudicated a habitual felony offender and has been
sentenced to an extended term in accordance with the provisions of section
775.084(4)(a), Florida Statutes. The requisite findings by the court are set •
forth in a separate order or stated on the record in open court.
The defendant is adjudicated a habitual violent felony offender and has
been sentenced to an extended term in accordance with the provisions of
section 775.084(4)(b), Florida Statutes. A minimum term of
_____________ year(s) must be served prior to release. The requisite
findings of the court are set forth in a separate order or stated on the record
in open court.
The defendant is adjudicated a prison releasee reoffender and has been
sentenced to serve 100 percent of the court-imposed sentence in accordance
with section 775.082(8)(b).
It is further ordered that the defendant shall serve a minimum of ;• /
years before release in accordance with section 775.0823, Florida Statutes.
It is further ordered that the defendant shall be ineligible for Parole in
accordance with the provisions of section 775.082(1), Florida Statutes.
It is further ordered that the 5-year minimum provisions of section
790.221(2), Florida Statutes, are hereby imposed for the sentence specified
in this count.
It is further ordered that the 25-year minimum sentence provisions of , .."
section 893.20, Florida Statutes, are hereby imposed for the sentence
specified in this count.

Other Provisions:
The court retains jurisdiction over the defendant pursuant to section
947.16(3), Florida Statutes (1983).

Retention of Jurisdiction
Jail Credit

X

It is further ordered that the defendant shall be allowed^ total of
340
days as credit for time incarcerated beffire imposition of
this sentence.
CD
CD

Page

of

<S3v. 9/20/00

i

w

.<

R20000080234
RECORBEB IN

St

PUBLIC RECORBS LEOH CNTV FI
BOOK: R2432
PAGE: 06270

/

Defendant

KEITH JOHNSON

NOV
07 2000 12:30 PM
DflUE LANG. CLERK OF

<5S^IT^Iuniber

R1999-4638 JK' R2432 Pfi; 00270

Other Provisions' continued:
Prison Credit
Consecutive/Concurrent
As to Other Counts
Consecutive/Concurrent

It is further ordered that the defendant be allowed credit for all time
previously served on this count in the Department of Corrections.
X

It is further ordered that the sentence imposed for countfs) 2-8 shall run
(check one)
consecutive to
X
concurrent with the • ;•*
sentence set forth in count ______
1
of this case. .
It is further ordered that the composite term of all sentences imposed for
the counts as to Other Convictions specified in this order shall run (check
one)
consecutive to
concurrent with the following: (check
one)
. any active sentence being served
specific sentences___________

:

V

In the event the above sentence is to the Department of Corrections, the Sheriff of LEON County, Florida, is hereby . ■
ordered and directed to deliver the defendant to the Department of Corrections at the facility designated by the department.
together with a copy of this judgment and sentence and any other documents specified by Florida Statute.
N

The defendant in open court was advised of the right to appeal from this sentence by filing notice of appeal within
30 days from this date with the clerk of this court and the defendant's right to the assistance of counsel in taking the appeal
at the expense of the State on showing of indigency.
In imposing the above sentence, the court further orders restitution ----In.-the amount- of $750,00 to
Crimes Compensation and
to
reduced to civil judgment-. ■

r.

CD
CD
CD
CD

\
Page

of

Rev. 9/20/00

